1099 NEW YORK AVENUE NW SUITE 900 WASHINGTON, DC 20001-4412

J EN N ER 5.B LOCK

■I

Adam G. Unikowsky
Tel +1 202 639 6041
Fax +1 202 661 4925
aunikowsky@jenner.com

March 6, 2020

Scott Harris
Clerk of Court
U.S. Supreme Court
1 First Street, NE
Washington, DC 20543
Re:

Noem V. Flandreau Santee Sioux Tribe, No. 19-1056

Dear Mr. Harris:
We represent Respondent in Noem v. Fiandreau Santee Sioux Tribe, No. 19-1056. Petitioner filed a
petition for certiorari after receiving a 30-day extension of time to file the petition; the petition was
docketed on February 26, 2020. The brief in opposition is currently due on March 27, 2020. As a result
of counsel’s professional obligations in other matters, we respectfully move for a 31-day extension of time
to file Respondent's brief (30 days from March 27 is a Sunday), to and including April 27, 2020.

Sincerely,

Adam G. Unikowsky
Counsel for Respondent

CC: Paul S. Swedlund, Counsel for Petitioners

CHICAGO

LONDON

LOS ANGELES

NEW YORK

WASHINGTON, DC

WWW. JENNER. COM

LLP

